No. 19-639
IN THE SUPREME COURT OF THE UNITED STATES
—0O0—

Linda Shao Petitioner - Appellant,
vs.
Tsan-Kuen Wang, Respondents - Appellees.
—0O0—

On Petition For A Writ Of Certiorari To the California Sixth District Court of Appeal
regarding its Opinion on June 4, 2019 in 11040977 affirming Superior Court of California,
Santa Clara County Judge Theodore Zayner's Order of March 14, 2014 made without a
hearing on the Remittitur dated January 27, .2012 in. H035194, an appeal from Judge
Edward Davila's Order of September 2009 (S256743 denied review on August 14, 2019)
Proof of Service of Petition for Rehearing
Yi Tai Shao, Esq. Petitioner in pro per
SHAO LAW FIRM, PC
4900 Hopyard Road, Ste. 100
Pleasanton, CA 94588
(408) 8733888
(408) 4184070

I, Yi Tai Shao, declare that: I am over age of 18. My business address is at 4900
Hopyard Road, Ste. 100; Pleasanton, CA 94588-7101. On February^', 2020, as the
representative for a juridical person of SHAO LAW FIRM, PC, I served the Petition
for Rehearing
Via First Class mail where I prepared the mail, sealed the envelop and sent for first mail
at the U. S. Postal Office located in Great Neck, New York to the following persons:
Court of Appeal, 6th District; 333 W. Santa Clara. Street, 10th Floor; San Jose, CA
95113
California Supreme Court; 350 McAllister Street; San Francisco, California 94102
Administration of Santa Clara County court, 191 N. First Street, San Jose, CA 95113
David Sussman, Esq., 95 S. Market Street, Ste. 410; San Jose, CA 95113
Solicitor General of the U.S., Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
I declare under penalty of perjury under the laws of the United States that the foregoing
is true and correct.
Dated: February!2-, 2020

-urzzz=
Linda YfTai Shao

-fan IZ+hiAyrf fetniAip of-lOlV, -#u wUvtiy**! fuJtzrg p»4./
CtAzfi-fjfa t\Aicb^ oath tk#d~ 1hj
'T'&Shao 73 ~fwU>.

*

’

.ft/ivu A-fp'S-zX-

yp_ _
(

4?

RICHARD MOON
Notary Public - State of New York
NO. 01M06385716
Qualified in Queens County
■My Commission Expires Jan 14, 2023

i

